TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Improved Procedures Are Needed to Identify
                     Noncompliance With the Reporting
                   Requirements for Contributions of Motor
                                 Vehicles



                                      September 17, 2007

                              Reference Number: 2007-30-171




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 17, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Improved Procedures Are Needed to Identify
                               Noncompliance With the Reporting Requirements for
                               Contributions of Motor Vehicles (Audit # 200730025)

 This report presents the results of our review of Provision 884 (Donations of Motor Vehicles,
 Boats, and Airplanes) of the American Jobs Creation Act of 2004.1 The overall objective of this
 review was to evaluate the implementation of Provision 884 and the processing of individual
 income tax returns reporting deductions for donated motor vehicles. We performed this audit as
 part of our coverage of the implementation of tax bill legislation.

 Impact on the Taxpayer
 In recent years, the legitimacy of the values placed on gifts of donated property, clothing,
 vehicles, and other noncash items has been questioned by the Internal Revenue Service (IRS)
 and Congress. Due to concerns about taxpayers deducting amounts for motor vehicles that did
 not represent the accurate fair market values2 of the donations, Congress passed legislation
 limiting the deductions and adding reporting requirements. Currently, taxpayers who may not be
 entitled to deductions for charitable contributions of motor vehicles are reducing their tax
 liabilities, which could result in a loss of revenue to the Federal Government and inequitable
 treatment of taxpayers.



 1
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
 2
   Fair market value is the price at which the property would change hands between a willing buyer and a willing
 seller, neither being under any compulsion to buy or sell and both having reasonable knowledge of the relevant
 facts.
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles



Synopsis
Individual taxpayers are required to file Noncash Charitable Contributions (Form 8283) if their
charitable deductions claimed for noncash contributions exceed $500. Provision 884 of the
American Jobs Creation Act of 2004 added information and reporting requirements for charitable
contributions of motor vehicles. Individual taxpayers are required to file Contributions of Motor
Vehicles, Boats, and Airplanes (Form 1098-C) or a written acknowledgement from the charity,
in addition to Form 8283, if their charitable deductions claimed for donated motor vehicles
exceed $500. The allowable deduction depends on what the charity does with the vehicle. If the
charity sells the vehicle without significantly using or improving it, the deduction is limited to
the smaller of the gross proceeds received by the charity from the sale, or the vehicle’s fair
market value on the date of the contribution. However, if the charity (1) makes a significant
intervening use of the vehicle before transferring it, (2) makes a material improvement to the
vehicle before transferring it, or (3) gives or sells the vehicle to a needy individual for a price
significantly below fair market value, the deduction is generally the vehicle’s fair market value
on the date of the contribution.
The IRS revised tax forms and publications and provided training and information to employees
to facilitate implementation of the new requirements for claiming deductions for charitable
contributions of motor vehicles. However, taxpayers and tax practitioners still need to be better
educated concerning requirements for claiming deductions for donated motor vehicles. Also,
additional procedures need to be established to identify noncompliance with motor vehicle
donation requirements during returns processing. Better education of taxpayers and preparers
and additional returns processing procedures will enable the IRS to address potential
noncompliance, as Congress intended in its legislation. We estimate 104,846 taxpayers claimed
unsubstantiated motor vehicle donations totaling approximately $209 million for the tax year
ending December 31, 2005.3

Recommendations
We recommended the Commissioner, Wage and Investment Division, coordinate with the other
responsible operating divisions to develop a comprehensive outreach plan on the reporting
requirements for motor vehicle donations for affected taxpayers and tax practitioners. We also
recommended the Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, lower the dollar threshold to ensure most of the
returns claiming unsubstantiated deductions are addressed and develop procedures to correspond
with taxpayers to obtain missing Forms 8283 and supporting documentation. Taxpayers failing


3
  The actual tax losses cannot be determined because the IRS is unable to identify these taxpayers. See page 4 of
this report for additional details on our estimates.
                                                                                                                    2
                   Improved Procedures Are Needed to Identify Noncompliance
                      With the Reporting Requirements for Contributions of
                                         Motor Vehicles


to provide missing Forms and substantiation should have a specific audit code input on their tax
returns to alert the Examination function of returns without required substantiation for charitable
contributions of motor vehicles.

Response
IRS management disagreed with one of our recommendations and partially agreed with the other.
The IRS did not agree that a comprehensive outreach program was needed and, in fact, stated the
timing of our review was a factor in the high noncompliance rate we found. Management
believes that the actions they are taking as a result of recommendations in a previous audit
report4 will also address the new reporting requirements for motor vehicle deductions.
Management considers motor vehicles as only a small subset of the overall population of
noncash contributions and, therefore, did not agree to adjust the dollar threshold addressing
unsubstantiated motor vehicle donations. However, they agreed to explore alternative ways to
address lower-dollar motor vehicle donation compliance issues. The IRS will continue to
correspond with taxpayers claiming motor vehicle deductions over a specific dollar threshold and
with no Forms 8283 attached to their returns. In addition, the IRS agreed to assign a specific
audit indicator to alert the Examination function of returns claiming motor vehicle deductions
over a threshold dollar amount and with no Forms 8283 attached. Management’s complete
response to the draft report is included in Appendix IV.

Office of Audit Comment
We disagree with the IRS. The law was passed in 2004 and was effective for donations made
beginning in 2005. Tax returns reflecting those donations were filed in 2006. The IRS had more
than a year to make taxpayers and preparers aware of the change in the law and yet there was
still an 80 percent noncompliance rate. The deficient cases in our samples were all filed after the
IRS outreach was already available. Further, because the IRS is taking no action when taxpayers
file returns without required documentation (except in very extreme and unlikely instances)
taxpayers’ and preparers’ knowledge of the new requirements may not improve very rapidly.
We agree that additional actions taken to publicize the increased reporting requirements for
noncash contributions may also address the new reporting requirements for motor vehicle
deductions. However, these outreach efforts must specifically emphasize that the documentation
requirements for donation of a motor vehicle are different than those for other noncash
contributions.



4
 The Internal Revenue Service Needs to Improve Procedures to Identify Noncompliance With the Reporting
Requirements for Noncash Charitable Contributions (Reference Number 2007-30-049, dated March 5, 2007).
                                                                                                         3
                  Improved Procedures Are Needed to Identify Noncompliance
                     With the Reporting Requirements for Contributions of
                                        Motor Vehicles


We also disagree with the IRS’ policy of treating motor vehicles as a small subset of the overall
population of noncash contributions. Congress specifically provided different substantiation
levels for motor vehicles and, in our opinion, to ignore that fact in administering the tax law is
not in keeping with Congress’ intent. In addition, we believe the IRS’ plan for taking action only
when the deduction exceeds the high threshold established for other noncash donations and only
when the Form 8283 is missing (rather than incomplete) will result in virtually no action by
the IRS. None of the returns with inadequate documentation in our samples would receive
followup under the IRS planned corrective actions. We plan to perform a followup audit to
determine if the compliance rate significantly improves.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit, (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                4
                        Improved Procedures Are Needed to Identify Noncompliance
                           With the Reporting Requirements for Contributions of
                                              Motor Vehicles




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Tax Forms and Publications Were Revised, and Training and Information
          Were Provided to Employees to Facilitate Implementation of the New
          Requirements for Motor Vehicle Donations.................................................Page 2
          Taxpayers and Tax Practitioners Need to Be Better Educated Concerning
          Requirements for Claiming Motor Vehicle Donations.................................Page 2
                    Recommendation 1:..........................................................Page 5

          Additional Procedures Need to Be Established to Identify Noncompliance
          With Motor Vehicle Donation Requirements During Returns Processing...Page 6
                    Recommendation 2:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        Improved Procedures Are Needed to Identify Noncompliance
           With the Reporting Requirements for Contributions of
                              Motor Vehicles




                      Abbreviations

AJCA            American Jobs Creation Act of 2004
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles




                                            Background

The Tax Code allows individuals and businesses to make noncash contributions (e.g., vehicles,
paintings, used clothing, and household goods) to qualifying charities and to claim deductions
for these contributions on their tax returns. Gifts of donated property, clothing, vehicles, and
other noncash items have long been a source of revenue for many charitable organizations and a
popular deduction for taxpayers. In recent years, the legitimacy of the values placed on some of
these noncash donations has been questioned by the Internal Revenue Service (IRS) and
Congress. There were concerns about taxpayers deducting amounts for used vehicles that did
not represent the accurate fair market value1 of the donation as required by the tax laws and, as a
result, taxpayers were benefiting by the deduction more than the charities were benefiting from
the donations. As a result, Congress passed legislation limiting the deduction to the gross
amount of the sale, if sold, and adding additional reporting requirements to substantiate the value
of some of these donations. In Tax Year 2003,2 individuals reported 14.3 million noncash
donations valued at about $36.9 billion. Of these, approximately 857,000 were vehicle donations
valued at about $2.3 billion.3
On October 22, 2004, President Bush signed the American Jobs Creation Act of 2004 (AJCA).4
AJCA Provision 884 (Donations of Motor Vehicles, Boats, and Airplanes) added reporting
requirements for individual taxpayers making charitable contributions of motor vehicles valued
at more than $500. The IRS Wage and Investment Division was assigned primary responsibility
for implementation of Provision 884. The implementation of this Provision involved multiple
actions, including providing training and guidance to IRS employees, creating and revising tax
forms and publications, and coordinating extensively with various IRS functions.
This review was performed in the Submission Processing function of the Wage and Investment
Division and the Small Business/Self-Employed Division during the period February through
May 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




1
  Fair market value is the price at which the property would change hands between a willing buyer and a willing
seller, neither being under any compulsion to buy or sell and both having reasonable knowledge of the relevant
facts.
2
  Tax Year 2003 was the most current year for which complete data were available.
3
  IR-2006-113, July 18, 2006.
4
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                           Page 1
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles




                                      Results of Review

Tax Forms and Publications Were Revised, and Training and
Information Were Provided to Employees to Facilitate Implementation
of the New Requirements for Motor Vehicle Donations
To facilitate implementation of the new requirements for claiming motor vehicle donations, the
Large and Mid-Size Business Division created on its web site an AJCA webpage that contained
links to notices, news releases, fact sheets, and other existing technical guidance related to the
Act. Tax forms and publications related to motor vehicle donations were properly updated in
accordance with the new law. In addition, training covering the new law was provided to IRS
employees.
The Large and Mid-Size Business Division used the Legislative Implementation Tracking
System, which is an IRS Intranet-based planning and monitoring system, to monitor
implementation of the legislation. This System lists the required actions with estimated due
dates and the functions responsible for taking the necessary actions.

Taxpayers and Tax Practitioners Need to Be Better Educated
Concerning Requirements for Claiming Motor Vehicle Donations
Individual taxpayers are required to file Noncash Charitable Contributions (Form 8283) if their
charitable deductions claimed for noncash contributions exceed $500. Provision 884 of the
AJCA added additional information and reporting requirements for charitable contributions of
motor vehicles. In addition to Form 8283, individual taxpayers are required to file Contributions
of Motor Vehicles, Boats, and Airplanes (Form 1098-C) or a written acknowledgement from the
charity if their charitable deductions claimed for donated motor vehicles exceed $500.5
Taxpayers filing electronic returns are required to file U.S. Individual Income Tax Declaration
for an IRS e-file Return (Form 8453) to submit Form 1098-C or any required paper forms.6 The
Provision limits the deductions for vehicle donations of more than $500 to the sale price obtained
by the charity; however, in some limited circumstances, the donor may claim fair market value.
The allowable deduction depends on what the charity does with the vehicle. If the charity sells

5
  Although the Provision was effective for donations made after December 31, 2004, the Form 1098-C was not
completed until September 13, 2005.
6
  Form 8453 is used to authenticate the electronic portion of U.S. Individual Income Tax Return (Form 1040) and to
send any required paper forms, such as Forms 1098-C. All electronically transmitted returns with required paper
forms will not be considered complete, and therefore filed, unless and until a Form 8453 signed by the taxpayer or
an authorized agent is received by the IRS.
                                                                                                          Page 2
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles



the vehicle without significantly using or improving it, the deduction is limited to the smaller of
the gross proceeds received by the charity from the sale, or the vehicle’s fair market value on the
date of the contribution. However, if the charity (1) makes a significant intervening use of the
vehicle before transferring it, (2) makes a material improvement to the vehicle before
transferring it, or (3) gives or sells the vehicle to a needy individual for a price significantly
below fair market value, the deduction is generally the vehicle’s fair market value on the date of
the contribution.
The Provision also requires a written appraisal from a qualified appraiser for motor vehicle
donations of more than $5,000 if the deduction is not limited to the gross proceeds from the sale
of the vehicle. Provision 884 is effective for donations made after December 31, 2004.
We reviewed statistically valid samples of Tax Year 2005 individual income tax returns on
which the deductions claimed for noncash charitable contributions were greater than $500.
In 140 (80 percent) of 176 sample cases claiming deductions for contributions of motor vehicles,
taxpayers failed to provide the required substantiation for deductions of approximately
$300,000.7 Paid preparers prepared 123 (70 percent) of the returns in our samples and prepared
100 (71 percent) of the 140 error cases.
Normally, the onus is on taxpayers and their preparers to stay abreast of existing and new tax law
provisions. However, the IRS also has a responsibility to help taxpayers understand and meet
their tax responsibilities. The fact that in 80 percent of our sample cases taxpayers and/or
preparers were not complying with the specific requirements for claiming deductions for
charitable contributions of motor vehicles indicates the need for further action by the IRS.
Figure 1 contains additional details regarding our samples and our sample results.




7
 The actual tax losses cannot be determined because the IRS did not identify these returns and, therefore, took no
actions to determine whether the taxpayers could provide the required documentation.




                                                                                                             Page 3
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles



vehicles of approximately $209 million on Tax Year 2005 returns processed in 2006.13 Without
proper documentation, these taxpayers, by law, are not entitled to these deductions.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should coordinate
with the other responsible operating divisions to develop a comprehensive outreach plan on the
reporting requirements for motor vehicle donations for affected taxpayers and tax practitioners.
        Management’s Response: IRS management did not agree with our
        recommendation. Management did not believe a comprehensive outreach plan was
        needed at this time and, in fact, stated the timing of our review was a factor in the high
        noncompliance rate we found because we included returns filed during the first year in
        which the legislative change took effect. IRS management believes the actions they are
        taking as a result of recommendations in a previous audit report14 regarding noncash
        charitable contributions will also address the new reporting requirements for motor
        vehicle deductions.
        Office of Audit Comment: We disagree with the IRS. The law was passed in 2004
        and was effective for donations made beginning in 2005. Tax returns reflecting those
        donations were filed in 2006. The IRS had more than a year to make taxpayers and
        preparers aware of the change in the law and yet there was still an 80 percent
        noncompliance rate. The deficient cases in our samples were all filed after the IRS
        outreach was already available. Further, because the IRS is taking no action when
        taxpayers file returns without required documentation (except in very extreme and
        unlikely instances) taxpayers’ and preparers’ knowledge of the new requirements may
        not improve very rapidly.
        We agree that additional actions taken to publicize the increased reporting requirements
        for noncash contributions may also address the new reporting requirements for motor
        vehicle deductions. However, these outreach efforts must specifically emphasize that the
        documentation requirements for donation of a motor vehicle are different than those for



13
   These estimates were determined using the two samples described in Figure 1 and on Page 3. For the sample of
paper returns with motor vehicle donations greater than $500, we estimate 45,567 taxpayers could have claimed
unsubstantiated motor vehicle contributions totaling $87 million. The number of taxpayers range from 23,429 to
67,706 totaling approximately $39 million to $136 million. For the sample of electronic returns with motor vehicle
donations greater than $500, we estimate 59,279 taxpayers could have claimed unsubstantiated motor vehicle
contributions totaling $122 million. The number of taxpayers range from 54,926 to 63,633 totaling approximately
$105 million to $138 million.
14
   The Internal Revenue Service Needs to Improve Procedures to Identify Noncompliance With the Reporting
Requirements for Noncash Charitable Contributions (Reference Number 2007-30-049, dated March 5, 2007).
                                                                                                           Page 5
                        Improved Procedures Are Needed to Identify Noncompliance
                           With the Reporting Requirements for Contributions of
                                              Motor Vehicles



           other noncash contributions. We plan to perform a followup audit to determine if the
           compliance rate significantly improves.

Additional Procedures Need to Be Established to Identify
Noncompliance With Motor Vehicle Donation Requirements During
Returns Processing
The procedures used by the IRS Submission Processing function were not adequate to ensure
taxpayers met requirements for deducting charitable contributions of motor vehicles. Tax laws
related to noncash charitable contributions state that no deduction shall be allowed for various
noncash charitable contributions unless taxpayers provide specific substantiating information
with their tax returns. Individuals who claim deductions for donated motor vehicles exceeding
$500 must provide the following with their returns:
       •   Form 8283 containing a description of the donated property.15
       •   Form 1098-C or a written acknowledgement from the charity.16
Instructions for Form 8283 inform the taxpayer that his or her deduction generally will be
disallowed if he or she fails to attach Form 8283 or get a required appraisal. The instructions
also state taxpayers cannot claim deductions for donated motor vehicles greater than $500 if they
fail to file Form 1098-C (or other statement). However, the IRS Submission Processing function
did not adjust or stop these returns during processing or implement any type of review of these
returns. Submission Processing function guidelines allow returns with such deductions to be
processed except in the most egregious cases in which the deductions are of a very significant
amount and Form 8283 is missing. All other income tax returns filed without substantiation for
the claimed deductions for donated motor vehicles are processed as filed by the taxpayers.
Further, the IRS indicated the Examination function would be responsible for any review of
information related to these returns; however, the returns were not coded or processed in any
way to alert the Examination function of the unsubstantiated deductions. Instead, the returns go
through the same Examination function selection criteria as any other tax returns. The
Examination function generally audits fewer than 1 percent of the individual income tax returns
filed each year.
By not identifying returns filed without the required substantiation for donated motor vehicles,
the IRS is not addressing the Congressional intent of this legislation. Taxpayers who are not
entitled to deductions for donated motor vehicles are reducing their tax liabilities and may
receive refunds regardless of whether they provide the required substantiation. This could result
in a loss of revenue to the Federal Government and inequitable treatment of taxpayers.

15
     For a donated vehicle, taxpayers are required to enter the year, make, model, condition, and mileage.
16
     The written acknowledgement from the charity must contain the same information as Form 1098-C.
                                                                                                             Page 6
                  Improved Procedures Are Needed to Identify Noncompliance
                     With the Reporting Requirements for Contributions of
                                        Motor Vehicles



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, and the
Commissioner, Small Business/Self-Employed Division, should take the following actions to
address returns without required substantiation for charitable contributions of motor vehicles:
a) Lower the dollar threshold to ensure most of the returns claiming unsubstantiated deductions
are addressed.
b) Correspond with taxpayers to obtain missing Forms 8283 and supporting documentation.
c) Input a specific audit code on tax returns that fail to provide missing Forms and substantiation
to alert the Examination function of returns without required substantiation for charitable
contributions of motor vehicles.
       Management’s Response: IRS management partially agreed with our
       recommendation. IRS management considers motor vehicles as only a small subset of
       the overall population of noncash contributions. Therefore, the current dollar threshold
       for addressing unsubstantiated motor vehicle donations will not be adjusted. The IRS is
       exploring alternative ways to address lower-dollar motor vehicle donation compliance
       issues. The IRS will continue to correspond with taxpayers claiming noncash
       contributions over a specific dollar threshold and with no Forms 8283 attached to their
       returns. It also plans to assign a specific audit indicator to alert the Examination function
       of returns claiming charitable contributions of donated vehicles over a specific threshold
       dollar amount and with no Forms 8283.
       Office of Audit Comment: We disagree with the IRS’ policy of treating motor
       vehicles as a small subset of the overall population of noncash contributions. Congress
       specifically provided different substantiation levels for motor vehicles and, in our
       opinion, to ignore that fact in administering the tax law is not in keeping with Congress’
       intent. In addition, we believe the IRS’ plan for taking action only when the deduction
       exceeds the high threshold established for other noncash donations and only when the
       Form 8283 is missing (rather than incomplete) will result in virtually no action by the
       IRS. None of the returns with inadequate documentation in our samples would receive
       followup under the IRS planned corrective actions. We plan to perform a followup audit
       to determine if the compliance rate significantly improves.




                                                                                             Page 7
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the implementation of Provision 884
(Donations of Motor Vehicles, Boats, and Airplanes) of the AJCA of 20041 and the processing of
individual income tax returns reporting deductions for donated motor vehicles. To accomplish
our objective, we:
I.       Evaluated the IRS’ implementation of Provision 884.
         A. Reviewed the requirements for deductions of donated motor vehicles and identified
            the new requirements under Provision 884.
             1. Performed a risk assessment to identify any internal control weaknesses that
                needed to be included in our audit tests.
         B. Determined what actions have been taken by the IRS to implement Provision 884.
             1. Reviewed and monitored the Legislative Implementation Tracking System2 to
                identify planned actions to implement Provision 884.
             2. Determined whether the IRS timely developed and revised tax forms, schedules,
                instructions, and/or publications when necessary. We also determined whether
                IRS employees received training and whether taxpayers and tax practitioners were
                informed adequately concerning the requirements of the law.
             3. Determined whether the Internal Revenue Manual instructions regarding the
                processing of individual income tax returns reporting a deduction for donated
                motor vehicles have been addressed to successfully implement this provision.
II.      Evaluated controls over the processing of deductions for donated motor vehicles reported
         on individual income tax returns by reviewing samples of tax returns.
         A. Extracted a file with 2,588,793 tax returns from the Individual Master File3
            Return Transaction File,4 which is stored at the TIGTA Data Center


1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  This is an IRS Intranet-based planning and monitoring system to monitor implementation of the legislation. This
System lists the required actions with estimated due dates and the functions responsible for taking the necessary
actions.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The Return Transaction File contains line items transcribed during return processing and other fields such as math
calculations.
                                                                                                             Page 8
                     Improved Procedures Are Needed to Identify Noncompliance
                        With the Reporting Requirements for Contributions of
                                           Motor Vehicles



             Warehouse.5 We used the criterion of paper-filed individual income tax returns with
             noncash contributions in excess of $500 for the tax year ending December 31, 2005.6
         B. Selected a random and statistically valid sample of paper-filed tax returns (see audit
            Step II.C.) from the population based on a 95 percent confidence level and a
            confidence interval of ±3.25 percent. A statistical sampling method was used to
            make a projection about the population from which the sample was selected. We
            provided the numbers to the statistician contracted by TIGTA to validate our
            statistical sampling methodology. We validated the tax return data against the data on
            the Individual Master File Return Transaction File.
         C. Reviewed a random statistically valid sample of 9097 paper-filed tax returns with a
            Form 8283 to determine whether (1) the deductions were for vehicles donated to
            charitable organizations,8 and (2) Forms 1098-C (or acknowledgements from the
            donee) were attached to the returns.
         D. Extracted a file with 71,709 tax returns from the Tax Return Database,9 which is
            stored at the TIGTA Data Center Warehouse. We used the criterion of:
                  1) Electronically filed individual income tax returns with noncash contributions
                     in excess of $500 for the tax year ending December 31, 2005.
                  2) Motor vehicles with model years from 1900 through 2006 noted in the
                     Property Description field of Form 8283.
         E. Selected a random and statistically valid sample of electronically filed tax returns (see
            audit Step II.F.) from the population based on a 95 percent confidence level and a
            confidence interval of ±8 percent.10 A statistical sampling method was used to make a
            projection about the population from which the sample was selected. We provided
            the numbers to the statistician contracted by TIGTA to validate our statistical
            sampling methodology. We validated the tax return data against the data on the Tax
            Return Database.


5
  The TIGTA Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
6
  We selected this tax period so any deductions for noncash charitable contributions would be subject to AJCA
Provision 884.
7
  We selected a random sample of 1,200 paper filed returns to ensure that we received the required 909 sampled
cases.
8
  From the 909 tax returns, we identified 26 paper filed tax returns with a vehicle donation greater than $500 listed
on the Form 8283.
9
  The Tax Return Database contains all electronically filed original tax return information for individual and
business filers for Tax Years 1998 and beyond.
10
   We adjusted the precision levels to arrive at workable sample sizes. We used a Statistical Sample Size Calculator
to determine the confidence intervals and sample sizes.
                                                                                                             Page 9
          Improved Procedures Are Needed to Identify Noncompliance
             With the Reporting Requirements for Contributions of
                                Motor Vehicles



F. Reviewed a random statistically valid sample of 150 electronically filed tax
   returns to determine whether (1) a motor vehicle was reported on Form 8283, and
   (2) Form 8453 (with Form1098-C or an acknowledgement from the donee attached)
   was filed.
G. Determined whether the IRS took steps to obtain the documentation and what steps it
   took if no documentation was ever provided by the taxpayer.




                                                                               Page 10
                 Improved Procedures Are Needed to Identify Noncompliance
                    With the Reporting Requirements for Contributions of
                                       Motor Vehicles



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Bernard F. Kelly, Audit Manager
Philip W. Peyser, Lead Auditor
Dolores M. Castoro, Senior Auditor
Stephen A. Wybaillie, Senior Auditor
Layne Powell, Information Technology Specialist




                                                                                        Page 11
                Improved Procedures Are Needed to Identify Noncompliance
                   With the Reporting Requirements for Contributions of
                                      Motor Vehicles



                                                                  Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 12
    Improved Procedures Are Needed to Identify Noncompliance
       With the Reporting Requirements for Contributions of
                          Motor Vehicles



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 13
Improved Procedures Are Needed to Identify Noncompliance
   With the Reporting Requirements for Contributions of
                      Motor Vehicles




                                                    Page 14
Improved Procedures Are Needed to Identify Noncompliance
   With the Reporting Requirements for Contributions of
                      Motor Vehicles




                                                    Page 15
Improved Procedures Are Needed to Identify Noncompliance
   With the Reporting Requirements for Contributions of
                      Motor Vehicles




                                                    Page 16
Improved Procedures Are Needed to Identify Noncompliance
   With the Reporting Requirements for Contributions of
                      Motor Vehicles




                                                    Page 17
